APPLICATION AND
SOLICITATION
DISCLOSURE

VISA ADVANTAGE/VISA PLATINUM/VISA PLATINUM SECURED
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Advantage

2.99%

Introductory APR for 180 days from account opening.

11.25% to 16.25%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum

2.99%

Introductory APR for 180 days from account opening.

8.25% to 17.99%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Secured

15.25%
This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

Visa Advantage
0.00% Introductory APR for 365 days from account opening.
After that, your APR will be 11.25% to 16.25%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum
0.00% Introductory APR for 365 days from account opening.
After that, your APR will be 8.25% to 17.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Secured
15.25%
This APR will vary with the market based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00601975-MXC10-C-1-112019 (MXC101-E)

APR for Cash Advances

Visa Advantage
11.25% to 16.25%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum
8.25% to 17.99%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Secured
15.25%
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Balance Transfer Fee - Visa Advantage,
Visa Platinum
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

2.00% of the amount of each balance transfer
3.00% of the amount of each cash advance
2.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Advantage and Visa Platinum:
The Introductory APR for purchases will apply to transactions posted to your account during the first 180 days following
the opening of your account. The Introductory APR for balance transfers will apply to transactions posted to your account
during the first 90 days following the opening of your account. Any existing balances on Sikorsky Financial Credit Union,
Inc. loan or credit card accounts are not eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 14, 2020.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Advantage, Visa Platinum and Visa Platinum Secured are secured credit cards.
Credit extended under this credit card account is secured by various personal property and money including, but
not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral
for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00601975-MXC10-C-1-112019 (MXC101-E)

Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Balance Transfer Fee (Finance Charge) - Visa Advantage, Visa Platinum:
2.00% of each balance transfer during the promotional period only.
Cash Advance Fee (Finance Charge):
3.00% of each cash advance.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Document Copy Fee:
$5.00.
Pay-by-Phone Fee:
$15.00.
Statement Copy Fee:
$5.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00601975-MXC10-C-1-112019 (MXC101-E)

